No. 20A97

In The
Supreme Court of the United States

Sergei Vinkov,

Petitioner,
v.
Brotherhood Mutual Insurance Company, an Indiana
Corporation, United States District Court for the Central

District of California,

Respondents

I, Kenneth Hastings, at the time of service, was over 18 years of age
and not a party to this action. My address of business is Hastings Legal
Services LLC, 41715 Enterprise Cir. N. Suite 208, TEMECULA,
Riverside County, CA 92590, Phone 951-296-2669,
(https://www.hastingsls.com/), which is located in the county where the
service described below took place. My electronic address is:

ken@hastingsls.com.

I do swear or declare that on this date, December 10, 2020, as required
by US Supreme Court Rule 29 I have served the enclosed paper copies

and an électronic version of the documents:

(i) EMERGENCY APPLICATION TO ASSOCIATE JUSTICE

CLARENCE THOMAS FOR A TEMPORARY STAY OF

1
@FFICE

 

 
  

DEC 1 4 2929

SUPREME c
DISCOVERY AND TRIAL IN CASE NO. 5:19-CV-01821 SB (SP),
BROTHERHOOD MUTUAL INSURANCE COMPANY, INDIANA
CORPORATION VS SERGEI VINKOV IN THE UNITED STATES
DISTRICT COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA PENDING THE FILING AND DISPOSITION OF A
PETITION FOR A WRIT OF CERTIORARI,

(ii) PROOF OF SERVICE (not executed)

on parties’ counsels, and on every other person required to be served, by
depositing an envelope containing the above documents in the United
States Postal Service by first-class mail (including express or priority
mail), postage prepaid. The names and addresses of those served are as

follows:

Gi) Jeffrey B. Wall, Acting Solicitor General of United States, and
William P, Barr, Attorney General of the United States
Department of Justice, 950 Pennsylvania Avenue, NW Washington,
DC 20530-0001, Phone: 202-514-2217, email:

SupremeCtBriefs@USDOJ.gov

(ii) Brotherhood Mutual Insurance Company, an Indiana corporation,
c/a attorneys from Daley and Heft LLP, 462 Stevens Avenue Suite 201,
Solana Beach, CA 92075, Phone: (858) 755-5666

1. David Phillip Berman dberman@daleyheft.com,
jwelle@daleyheft.com

2. Lee H Roistacher lroistacher@daleyheft.com,
dhaber@daleyheft.com, mkilcrease@daleyheft.com,
peartwright@daleyheft.com

3. Robert W Brockman , Jr rbrockman@daleyheft.com,

hgrady@daleyheft.com

(iii) Honorable STANLEY BLUMENFELD JR., First Street
Courthouse, 350 W. 1st Street, Courtroom 6C, 6th Floor, Los Angeles,
California 90012, c/o Courtroom Clerk Victor Paul Cruz

victor_cruz@cacd.uscourts.gov

I declare under penalty of perjury that the foregoing is true and correct.

Kenneth Hastings,

  
  

Executed on December 10, 2020

VA

California Registered Process Server
